No.
IN THE
SUPREME COURT OF THE UNITED STATES

TAVARIUS D. RADFORD, Petitioner,
-vsPEOPLE OF THE STATE OF ILLINOIS, Respondent.

On Petition for Writ of Certiorari
to the Supreme Court of Illinois

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner requests leave to proceed in forma paLcperis. The Petitioner has
previously been granted leave to proceed in forma pauperis in the court below. Counsel
was appointed to represent petitioner in the court below pursuant to 725 ILCS
105/10(a).
Respectfully submitted,

~~~~
OMAS A. KARALIS
Counsel of Record
Deputy Defender
Office of the State Appellate Defender
Third Judicial District
770 E. Etna Road
Ottawa, IL 61350
(815) 434-5531
3rdDistrictG~osad.state.il.us
COUNSEL FOR PETITIONER
Of Counsel:
Steven Varel
Assistant Appellate Defender

